No. 20-843
IN THE

6uprente Court of the Entteb btateo
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,

Petitioners,
v.
in His Official Capacity as Acting Superintendent of New York State Police, RICHARD J. MCNALLY, JR., in
His official Capacity as Justice of the New York Supreme
Court, Third Judicial District, and Licensing Officer for Rensselaer County,
KEVIN BRUEN,

Respondents.
On Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
BRIEF OF SECOND AMENDMENT LAW
PROFESSORS AS AMICI CURIAE IN SUPPORT OF
NEITHER PARTY
DAVID H. FRY
JUSTIN P. RAPHAEL
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

DONALD B. VERRILLI JR.
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue N.W.
Suite 500 E
Washington, D.C. 20001
(202) 220-1100
donald.verrilli@mto.com

Counsel for Amid Curiae

TABLE OF CONTENTS
PAGE
INTEREST OF AMICI CURIAE

1

INTRODUCTION AND SUMMARY OF THE
ARGUMENT

4

ARGUMENT

9

THE COURTS OF APPEALS HAVE
UNIFORMLY AGREED ON A
FRAMEWORK FOR APPLYING THE
SECOND AMENDMENT

9

THIS COURT SHOULD ADOPT THE
FRAMEWORK USED BY THE
COURTS OF APPEALS FOR
APPLYING THE SECOND
AMENDMENT.

11

The Framework's Threshold
Standard Is Faithful To Heller
And Other Constitutional
Jurisprudence

11

Courts Applying The Framework
Invalidate Firearms Regulations
At Odds With A Uniform
Tradition Affirmatively
Recognizing A Right To Keep And
Bear Arms

13

Courts Will Not Be Able To Rely
On History And Tradition Alone
To Resolve Many Second
Amendment Cases

16

TABLE OF CONTENTS
(CONTINUED)
PAGE
Courts Required To Consider
History And Tradition Alone Will
Resort To Problematic
Jurisprudential Tools

21

The Courts Of Appeals' MeansEnd Scrutiny Is Consistent With
Heller And Aligns The Second
Amendment With Other
Constitutional Rights

25

III. CONCLUSION

31

TABLE OF AUTHORITIES
PAGE(S)
FEDERAL CASES
Adarand Constructors, Inc. v. Pena,
515 U.S. 200 (1995)

28

Association of New Jersey Rifle & Pistol
Clubs, Inc. v. Attorney General New
Jersey,
910 F.3d 106 (3d Cir. 2018)

11, 25

Association of New Jersey Rifle & Pistol
Clubs Inc. v. Attorney General New
Jersey,
974 F.3d 237 (3d Cir. 2020)

9

Atwater v. City of Lago Vista,
532 U.S. 318 (2001)

21

Binderup v. Attorney General,
836 F.3d 336 (3d Cir. 2016)

30

Cedar Point Nursery u. Hassid,
141 S. Ct. 2063 (2021)

29

Citizens United v. Federal Election
Commission,
558 U.S. 310 (2010)

27

City of Cleburne v. Cleburne Living
Center,
473 U.S. 432 (1985)

28

iv
TABLE OF AUTHORITIES
(CONTINUED)
PAGE S
Cornelius v. NAACP Legal Defense &
Education Fund, Inc.,
473 U.S. 788 (1985)

28

Craig v. Boren,
429 U.S. 190 (1976)

28

County of Riverside u. McLaughlin,
500 U.S. 44 (1991)
Defense Distributed v. U.S. Department
of State,
838 F.3d 451 (5th Cir. 2016)
District of Columbia u. Heller,
554 U.S. 570 (2008)
Engquist v. Oregon Departmente of
AgriCulture,
553 U.S. 591 (2008)

5

19
4, passim

27

Ezell v. City of Chicago,,
846 F.3d 888 (7th Cir. 2017)

10, 11

Fyock v. City of Sunnyvale,
779 F.3d 991 (9th Cir. 2015)

12

Galloway v. United States,
319 U.S. 372 (1943)

27

V

TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)

Garcetti u. Ceballos,
547 U.S. 410 (2006)
GeorgiaCarry.Org, Inc. v. Georgia,
687 F.3d 1244 (11th Cir. 2012)

13
5, 9

Gould v. Morgan,
907 F.3d 659 (1st Cir. 2018)

9, 26, 29

Harley v. Wilkinson,
988 F.3d 766 (4th Cir. 2021)

9

Heller u District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011)

2, passim

Heller u. District of Columbia,
801 F.3d 264 (D.C. Cir. 2015)

30

Jackson u. City & County of San
Francisco,
746 F.3d 953 (9th Cir. 2014)

5, 10

Kachalsky v. County of Westchester,
701 F.3d 81 (2d Cir. 2012)
Kanter u. Barr,
919 F.3d 437 (7th Cir. 2019)
Kentucky u. King,
563 U.S. 452 (2011)

18
9, 10, 11, 12
27

TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
Lange u. California,
No. 20-18, 2021 WL 2557068 (U.S.
June 23, 2021)
Libertarian Party of Erie County v.
Cuomo,
970 F.3d 106 (2d Cir. 2020)
McDonald v. City of Chicago,
561 U.S. 742 (2010)

21

9

8, passim

McIntyre v. Ohio Elections Commission,
514 U.S. 334 (1995)

27

Medina v. Whitaker,
913 F.3d 152 (D.C. Cir. 2019)

13

Minn. Voters Alliance u. Mansky,
138 S. Ct. 1876 (2018)

28

Moore v. Madigan,
702 F.3d 933 (7th Cir. 2012)

15

Morse v. Frederick,
551 U.S. 393 (2007)
New York State Rifle & Pistol
Association, Inc. v. Cuomo,
804 F.3d 242 (2d Cir. 2015)

27, 28

30

vii
TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
National Rifle Association of America,
Inc. u. Bureau of Alcohol, Tobacco,
Firearms, & Explosives,
700 F.3d 185 (5th Cir. 2012)

4, passiin

New York State Rifle & Pistol
Association, Inc. v. City of New York,
140 S. Ct. 1525 (2020)

12, 14, 25

New York v. Ferber,
458 U.S. 747 (1982)

13

Obergefell v. Hodges,
576 U.S. 644 (2015)

21

Palmer v. District of Columbia,
59 F. Supp. 3d 173 (D.D.C. 2014)

15

Riley v. California,
573 U.S. 373 (2014)

8, 23, 24

Ross v. Bernhard,
396 U.S. 531 (1970)

24

Silverman v. United States,
365 U.S. 505 (1961)

27

United States v. Adams,
914 F.3d 602 (8th Cir. 2019)

10

viii
TABLE OF AUTHORITIES
(CONTINUED)
Pal
United States v. Chester,
628 F.3d 673 (4th Cir. 2010)

11, 29

United States v. Class,
930 F.3d 460 (D.C. Cir. 2019)

10

United States v. Cox,
906 F.3d 1170 (10th Cir. 2018)

14

United States v. Davis,
304 F. App'x 473 (9th Cir. 2008)

19

United States v. Focia,
869 F.3d 1269 (11th Cir. 2017)

4

United States v. Greeno,
679 F.3d 510 (6th Cir. 2012)

9

United States v. Jones,
565 U.S. 400 (2012)
United States v. Marzzarella,
614 F.3d 85 (3rd Cir. 2010)

24

26, 27, 28

United States v. Masciandaro,
638 F.3d 458 (4th Cir. 2011)

5

United States v. Reese,
627 F.3d 792 (10th Cir. 2010)

9

ix
TABLE OF AUTHORITIES
(CONTINUED)
PAGE al
United States v. Skoien,
614 F.3d 638 (7th Cir. 2010)

13

United States v. Stevens,
559 U.S. 460 (2010)

13

United States v. Torres,
911 F.3d 1253 (9th Cir. 2019)
United States v. Virginia,
518 U.S. 515 (1996)
Virginia v. Moore,
553 U.S. 164 (2008)

4, 10, 13

26, 29

25

Woman v. Healey,
922 F.3d 26 (1st Cir. 2019)

9

Young v. Hawaii,
992 F.3d 765 (9th Cir. 2021)

9

STATE CASES
State v. Reid,
1 Ala. 612 (1840)

7

FEDERAL STATUTES
Act of Sept. 5, 1961, Pub. L. No. 87-197,
75 Stat. 466

19

TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
STATUTES - OTHER
R.I. Gen. Laws § 11-47-8(e)

20

CONSTITUTIONAL PROVISIONS
First Amendment

13, 26, 27, 28

Second Amendment

1, passim

Fourth Amendment

21, 27, 31

Fifth Amendment

29

Seventh Amendment

24

Bill of Rights

26, 29

LEGISLATIVE MATERIALS
H.R. REP. 116-88

20

OTHER AUTHORITIES
Alfred H. Kelly, Clio and the Court: An
Illicit Love Affair, 1965 Sup. Ct. Rev.
119

24

x
TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
An Act for the Better Security of the
Inhabitants, by Obliging the Male
White Persons to Carry Fire Arms to
Places of Public Worship, 1770, in
Robert Watkins & George Watkins,
A Digest of the Laws of the State of
Georgia (Phila., R. Aitken 1800)

18

An Act to Preserve the Peace and
Harmony of the People of this State,
and for Other Purposes, 1870, in
Public Laws, Passed by the General
Assembly of the State of Georgia, at
the Session of 1870

18

Andy Greenberg, I Made an
Untraceable AR-15 'Ghost Gun' in
My Office—and It Was Easy, Wired,
(June 3, 2015, 7:00 AM)

19

Darrell A.H. Miller, Peruta, the HomeBound Second Amendment, and
Fractal Originalism, 127 Harv. L.
Rev. Forum 238 (2014)

2

Darrell A.H. Miller, Text, History, and
Tradition: What the Seventh
Amendment Can Teach Us About the
Second, 122 Yale L. J. 852 (2013)

2

TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
Duke Center for Firearms Law,
Repository of Historical Gun, Laws

17

Eric M. Ruben & Saul Cornell, Firearm
Regionalism and Public Carry:
Placing Southern Antebellum Case
Law in Context, 125 Yale L. J.
Forum 121 (2015)

3, 18

Eric Ruben, An Unstable Core: SelfDefense and the Second Amendment,
108 Cal. L. Rev. 63 (2020)

2

Eric Ruben, Good Cause Requirements
for Carrying Guns in Public, 127
Harv. L. Rev. Forum 218 (2014)

1

Eric Ruben & Joseph Blocher, From
Theory to Doctrine: An Empirical
Analysis of the Right to Keep and
Bear Arms After Heller, 67 Duke L.
J. 1433 (2018)

2, 30

Eugene Volokh, Implementing the Right
to Keep and Bear Arms for SelfDefense: An Analytical Framework
and a Research Agenda, 56 UCLA L.
Rev. 1443 (2009)

23

x
TABLE OF AUTHORITIES
(CONTINUED)
PACE(S)
Hoffman & Ware, Is 3-D Printing the
Future of Terrorism?, Wall St. J.
(Oct. 25, 2019)

20

James E. Krier & Stewart E. Sterk, An
Empirical Study of Implicit Takings,
58 Wm. & Mary L. Rev. 35 (2016)

30

John P. Forren, Revisiting Four Popular
Myths About the Peyote Case, 8 U.
Pa. J. Const. L. 209 (2006)

31

Joseph Blocher, Bans, 129 Yale L. J.
308 (2019)
Joseph Blocher, Firearm Localism, 123
Yale L. J. 82 (2013)
Joseph Blocher, The Right Not to Keep
or Bear Arms, 64 Stan. L. Rev. 1
(2012)
Joseph Blocher & Darrell A.H. Miller,
The Positive Second Amendment:
Rights, Regulation, and the Future of
Heller 19 (2018)

14, 24

2, 18

2

2, 17

xiv

TABLE OF AUTHORITIES
(CONTINUED)
PAGE(S)
Joseph Blocher & Darrell A.H. Miller,
What Is Gun Control? Direct
Burdens, Incidental Burdens, and
the Boundaries of the Second
Amendment, 83 U. Chi. L. Rev. 295
(2016)

2

Nancy Leong, Making Rights, 92 B. U.
L. Rev. 405 (2012)

30

Robert Spitzer, Guns Across America:
Reconciling Gun Rules and Rights
(2015)

17

1
INTEREST OF AMICI CURIAE1
Amici curiae are scholars who have devoted a substantial part of their research and writing to the history
of weapons regulation in the United States and the legal
standards governing application of the Second Amendment. Their scholarship has been published by a major
university press and in leading law journals, and has
been cited by members of this Court and the courts of
appeals. Amici seek to explain why the framework that
the courts of appeals have uniformly adopted is consistent with this Court's jurisprudence applying other
constitutional rights. Amici further seek to explain that
measuring firearms regulations' constitutionality under
the Second Amendment solely by reference to history
and tradition will leave courts adrift in many cases involving a wide diversity of weapons regulations among
the several States. Amici's expertise renders them particularly well-suited to assist the Court in these respects.
Joseph Blocher is the Lanty L. Smith '67 Professor
of Law at Duke University School of Law. His scholarship on gun rights and regulation has been published in
the Harvard Law Review Forum, the Yale Law Journal,
the Stanford Law Review, and other leading academic
1
All parties have consented to the filing of this
brief. In accordance with Rule 37.6, no counsel for a
party authored this brief in whole or in part, and no
such counsel or party made a monetary contribution
intended to fund the preparation or submission of
this brief. No person other than the amici curiae, or
their counsel, made such a monetary contribution.

2
journals See, e.g., Good Cause Requirements for Carrying Guns in Public, 127 Harv. L. Rev. Forum 218 (2014);
Firearm Localism, 123 Yale L. J. 82 (2013); The Right
Not to Keep or Bear Arms, 64 Stan. L. Rev. 1 (2012). His
work has been cited by federal courts of appeal. E.g.,
Heller u Dist. of Columbia, 670 F.3d 1244 (D.C. Cir.
2011) ("Heller II"). Professor Blocher co-authored a book
with amicus Professor Darrell Miller, The Positive Second Amendment: Rights, Regulation, and the Future of
Heller (2018), which includes a comprehensive account
of the history, theory, and law of the right to keep and
bear arms.
Darrell Miller is the Melvin G. Shimm Professor of
Law at Duke University School of Law. His Second
Amendment scholarship has been published in the University of Chicago Law Review, the Harvard Law Review Forum, the Yale Law Journal, the Columbia Law
Review, and other leading journals. See, e.g., What Is
Gun Control? Direct Burdens, Incidental Burdens, and
the Boundaries of the Second Amendment, 83 U. CM. L.
Rev. 295 (2016) (with Joseph Blocher); Peruta, the
Home-Bound Second Amendment, and Fractal
Originalism, 127 Harv. L. Rev. Forum 238 (2014); Text,
History, and Tradition: What the Seventh Amendment
Can Teach Us About the Second, 122 Yale L. J. 852
(2013). His work has been cited by federal courts of appeal. E.g., Heller H, 670 F.3d 1244.
Eric Ruben is an Assistant Professor of Law at
SMU Dedman School of Law. His scholarship on the
Second Amendment has been published or is forthcoming in the California Law Review, Duke Law Journal, Georgetown Law Journal, Iowa Law Review, Yale
Law Journal Forum, and other prominent publications. See, e.g., An Unstable Cora• Self-Defense and the

3
Second Amendment, 108 Cal. L. Rev. 63 (2020); From
Theory to Doctrine: An Empirical Analysis of the Right
to Keep and Bear Arms After Heller, 67 Duke L. J. 1433
(2018) (with Joseph Blocher); Firearm Regionalism and
Public Carry: Placing Southern Antebellum Caselaw in
Context, 125 Yale L. J. Forum 121 (2015) (with Saul
Cornell). His work has been cited in opinions of federal
district and appellate courts addressing Second Amendment issues.

4
INTRODUCTION AND SUMMARY
OF THE ARGUMENT

Amici urge the Court to hold that the courts of appeals are using the proper doctrinal framework to adjudicate Second Amendment claims. Amici take no position on how that framework should apply to the New
York policy at issue.
In Heller, "this Court's first in-depth examination of
the Second Amendment," the Court explicitly disclaimed any attempt "to clarify the entire field," leaving
the Amendment's precise contours to future cases. District of Columbia v. Heller, 554 U.S. 570, 635 (2008).
More than a decade and 1,500 cases later, the courts of
appeals are in broad agreement that a conventional
framework for adjudicating constitutional rights applies
to the Second Amendment. At the threshold, courts
"ask if the restricted activity is protected by the Second
Amendment in the first place; and then, if necessary,
[they) ... apply the appropriate level of scrutiny."
United States v. Focia, 869 F.3d 1269, 1285 (11th Cir.
2017), cert. denied, 139 S. Ct. 846 (2019). "A regulation
that threatens a right at the core of the Second Amendment—for example, the right of a law-abiding, responsible adult to possess and use a handgun to defend his or
her home and family—triggers strict scrutiny." Nat'l Rifle Assin of Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms, & Explosives, 700 F.3d 185, 195 (5th Cir. 2012)
("NRA") (citation omitted). Courts apply intermediate
scrutiny "if a challenged law does not implicate a core
Second Amendment right, or does not place a substantial burden on the Second Amendment right." United

5
States v. Torres, 911 F.3d 1253, 1262 (9th Cir. 2019) (internal quotation marks omitted).
This familiar constitutional framework is consistent
with Heller and gives a privileged place to history and
tradition while providing courts with tools to resolve
cases challenging regulations with an ambiguous history or a recent vintage.
The consensus view of the lower courts is faithful to
Heller's command "that. . . courts must read [a] challenged statute in light of the historical background of
the Second Amendment[,]" GeorgiaCarry.Org, Inc. v.
Georgia, 687 F.3d 1244, 1261 (11th Cir. 2012). Indeed,
"historical meaning enjoys a privileged interpretive role
in the Second Amendment context." United States v.
Masciandaro, 638 F.3d 458, 470 (4th Cir. 2011). Courts
first "ask 'whether the challenged law burdens conduct
protected by the Second Amendment,' based on a 'historical understanding of the scope of the ... right."' Jackson v. City & Cty. of San Francisco, 746 F.3d 953, 960
(9th Cir. 2014) (citation omitted). The regulation can be
upheld without further analysis if "the record includes
persuasive historical evidence establishing that the regulation at issue imposes prohibitions that fall outside
the historical scope of the Second Amendment." Id. At
the same time, courts after Heller also have not needed
means-end scrutiny to condemn laws that violate rights
deeply embedded in the history of our legal system.
However, there will be few Second Amendment cases
involving "questions on which a clear answer already existed in 1791 and has been generally adhered to by the
traditions of our society ever since." Cty. of Riverside v.
McLaughlin, 500 U.S. 44, 60 (1991) (Scalia, J., dissenting). Both weapons and weapons regulations in this

6
country have taken a variety of forms, reflecting the diversity of our communities and safety concerns, and
have changed over time. As such, the historical record
will be ambiguous with respect to many laws regulating
weapons. Moreover, as in other areas of the law, today's
world involves technologies, practices and dangers associated with weapons that were unknown to Americans
throughout most of their history. Grounding the Second
Amendment entirely in history and tradition would
leave the courts in many cases with little guidance.
Courts required to apply a purely historical test in
cases with an equivocal or non-existent historical record
could adopt a rule that a regulation is constitutional unless it prohibits individuals from doing what our legal
tradition has always recognized they had a right to do,
i.e., a rule that every law that does not fit the Heller
mold is constitutional. That rule maximizes deference
to the democratically accountable branches of government. But such a test would uphold firearms laws that
would fail even intermediate scrutiny under the courts
of appeals' current framework because the government
cannot show that they are reasonably necessary to advance a substantial interest.
Alternatively, courts could adopt a rule that any regulation must have been adopted and maintained by
nearly all jurisdictions, or must have a precise historical
analogue to comply with the Second Amendment. Such
a rule would, however, render empty this Court's assurance that the Second Amendment does not foreclose the
people from using "a variety of tools for combating" gun
violence. Heller, 554 U.S. at 636. It also would misconstrue Heller. To be sure, the District of Columbia's prohibition on keeping firearms in the home lacked any historical precedent, but that alone was insufficient for

7
striking down the law without resort to means-end scrutiny. The Court in Heller invalidated the District's law
because it nullified the core component of a right this
Court found consistently and uniformly recognized
throughout the history of our legal tradition. See id. at
629 ("A statute which, under the pretence of regulating,
amounts to a destruction of the right, or which requires
arms to be so borne as to render them wholly useless for
the purpose of defence, would be clearly unconstitutional" (quoting State v. Reid, 1 Ma. 612, 616-617
(1840))).
What was decisive in Heller was not the District's
inability to point to a history of all jurisdictions at all
times having adopted a law like its own but rather that
the District's law left no room for the exercise of a right
that virtually all legal sources in our history had recognized. As such, under Heller, the touchstone of a Second
Amendment violation that transcends means-end scrutiny is an unbroken tradition of recognizing a right to
use weapons in a way that a law forbids. The lack of an
unbroken tradition of laws like the one being challenged, without more, does not establish a Second
Amendment violation. The Second Amendment permits the people to prohibit what they have sometimes
permitted; it does not place every use of weapons the
Founders or others have made at some times and in
some places categorically beyond the police power at all
times in all places.
Caught between under- and over-inclusive default
rules for breaking historical ties, courts required to decide cases based solely on history and tradition would
tend to either shroud their policy preferences in selective historiography or resort to abstruse analogies. This

8
Court has declined to ground constitutional jurisprudence in an "analogue test" that is difficult for courts to
apply, unpredictable to government actors and opaque
to the people. Riley v. California, 573 U.S. 373, 401
(2014).
Bereft of any administrable way to decide cases
based on history and tradition where they provide no
clear precedent or analogs, courts will tend to stray into
covert, ad hoc interest balancing. The sounder and more
transparent framework for applying the Second Amendment where history does not provide a dear answer is
the means-end scrutiny that the courts of appeals have
uniformly adopted and that this Court has long used to
apply other constitutional rights. That approach would
give the lower courts the guidance they need while still
giving a privileged place to history and tradition. Indeed, the courts of appeals' framework gives effect to
Heller's reading of history that "individual self-defense
is 'the central component' of the Second Amendment
right," McDonald v. City of Chicago, 561 U.S. 742, 767
(2010) (quoting Heller, 544 U.S. at 599), by applying
strict scrutiny to regulations that severely burden (but
do not nullify) that histnrically recognized right. This
rule is consistent with this Court's precedents applying
strict scrutiny to laws that significantly burden activity
at the traditional core of other constitutional protections, while applying intermediate scrutiny to laws in
other circumstances.
. The framework used by the courts of appeals protects
the people's fundamental right to keep and bear arms
while ensuring that the people also can protect themselves through legislation. This Court should recognize
that framework as the correct approach to evaluating

9
claims that government has infringed the Second
Amendment.
ARGUMENT
I.

THE COURTS OF APPEALS HAVE
UNIFORMLY AGREED ON A
FRAMEWORK FOR APPLYING THE
SECOND AMENDMENT.

This Court in Heller "declin[ed) to establish a level of
scrutiny for evaluating Second Amendment re:
strictions." 554 U.S. at 634. The courts of appeals have
since reached broad consensus on "a workable framework, consistent with Heller, for evaluating whether a
challenged law infringes Second Amendment rights."
Gould v. Morgan, 907 F.3d 659, 669 (1st Cir. 2018).
The First; Second, Third, Fourth, Fifth, Sixth, Seventh, Ninth, Tenth, Eleventh, and District of Columbia
Circuits have explicitly adopted this framework. See
Worman v. Healey, 922 F.3d 26, 33 (1st Cir. 2019), cert.
denied, 141 S. Ct. 109 (2020); Libertarian Party of Erie
Cty. v. Cuomo, 970 F.3d 106, 127 (2d Cir. 2020), cert. denied, 2021 WL 2519117 (U.S. June 21, 2021); *sit of
New Jersey Rifle & Pistol Clubs Inc. v. Att'y Gen. New
Jersey, 974 F.3d 237, 242 (3d Cir. 2020); Harley v. Wilkinson, 988 F.3d 766, 769 (4th Cir. 2021); Nat'l Rifle
Assn of Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms, & Explosives, 700 F.3d 185, 194, 206 (5th Cir.
2012) ("NRA"); United States v. Green, 679 F.3d 510,
518 (6th Cir. 2012); Kanter v. Barr, 919 F.3d 437, 442
(7th Cir. 2019); Young v. Hawaii, 992 F.3d 765, 783 (9th
Cir. 2021); United States v. Reese, 627 F.3d 792, 800801 (10th Cir. 2010); GeorgiaCarry.Org, 687 F.3d at

10
1260, n. 34; United States v. Class, 930 F.3d 460, 463
(D.C. Cir. 2019). The Eighth Circuit also has acknowledged the framework, but has not yet specifically
adopted it. See United States v. Adams, 914 F.3d 602
(8th Cir. 2019).2
The first step involves a "threshold question [of]
whether the regulated activity falls within the scope of
the Second Amendment." Ezell v. City of Chi., 846 F.3d
888, 892 (7th Cir. 2017). This inquiry is based on a "historical understanding of the scope of the ... right." Jackson, 746 F.3d at 960. "A law does not burden Second
Amendment rights, if it either falls within one of the
`presumptively lawful regulatory measures' identified in
Heller' or regulates conduct that historically has fallen
outside the scope of the Second Amendment." Torres,
911 F.3d at 1258 (quoting Heller, 554 U.S. at 627, n. 26)
(internal quotation marks omitted).
"Mr' the historical evidence is inconclusive or suggests that the regulated activity is not categorically unprotected[,] then there must be a second inquiry into the
strength of the government's justification for restricting
or regulating the exercise of Second Amendment
rights." Kanter, 919 F.3d at 441. In such cases, courts
"evaluate the regulatory means the government has
chosen and the public-benefits end it seeks to achieve."
Id. (internal quotation marks omitted).
To determine the appropriate level of scrutiny, courts
evaluate "how close the law comes to the core of the Sec-

2

Given the Federal Circuit's subject-limited
jurisdiction, it is unsurprising that it has not
addressed the issue.

11
and Amendment right and the severity of the law's burden on that right." Id. "If the core Second Amendment
right is burdened, then strict scrutiny applies; otherwise, intermediate scrutiny applies." ASS171. of N.J. Rifle
& Pistol Clubs, Inc. v. Att'y Gen. N.J., 910 F.3d 106, 117
(3d Cir. 2018). At all events, "rational-basis review does
not apply." Kanter, 919 F.3d at 442.
II.

THIS COURT SHOULD ADOPT THE
FRAMEWORK USED BY THE COURTS
OF APPEALS FOR APPLYING THE
SECOND AMENDMENT.
•
This Court should adopt the framework that the
courts of appeals have been applying for adjudicating
claims that weapons regulations violate the Second
Amendment. That framework is consistent with Heller.
It gives effect to history and tradition of both weapons
regulation and the right to bear arms. And it provides
courts with tools to resolve cases involving an unclear
historical record or regulations addressing issues that
have emerged only in recent history.
A.

The Framework's Threshold
Standard Is Faithful To Heller And
Other Constitutional
Jurisprudence

Under the courts of appeals' framework, the "threshold question" is "whether the regulated activity falls
within the scope of the Second Amendment." Ezell, 846
F.3d at 892. This inquiry emanates directly from Heller,
where this Court "acknowledged that the scope of the
Second Amendment is subject to historical limitations."
United States v. Chester, 628 F.3d 673, 679 (4th Cir.
2010).

12
This Court in Heller noted that "the majority of the
19th-century courts to consider the question held that
prohibitions on carrying concealed weapons were lawful
under the Second Amendment or state analogues." 554
U.S. at 626. It went on to state that "nothing in our
opinion should be taken to cast doubt on longstanding
prohibitions on the possession of firearms by felons and
the mentally ill, or laws forbidding the carrying of firearms in sensitive places such as schools and government
buildings, or laws imposing conditions and qualifications on the commercial sale of arms." Id. at 626-M27.
This Court also endorsed the "historical tradition of prohibiting the carrying of 'dangerous and unusual weapons."' Id. at 627. Heller thus "recognized that history
supported the constitutionality of some laws limiting
the right to possess a firearm, such as laws banning firearms from certain sensitive locations and prohibiting
possession by felons and other dangerous individuals."
New York State Rifle & Pistol Ass'n, Inc. v. City of New
York, 140 S. Ct. 1525, 1540-1541 (2020) ("NYSRPA I")
(Alito, J., dissenting).
Consistent with this precedent, the courts of appeals
have concluded that a law "does not burden conduct protected by the Second Amendment if the record contain[s]
evidence that [the subjects of the law] have been the
subject of longstanding, accepted regulation." Fyock v.
City of Sunnyvale, 779 F.3d 991, 997 (9th Cir. 2015).
"[A] longstanding, presumptively lawful regulatory
measure ... would likely fall outside the ambit of the
Second Amendment" and "would likely be upheld at
step one of [the prevailing] framework." NRA, 700 F.3d
at 196. Thus, the framework's threshold requirement is
"a textual and historical inquiry," Kanter, 919 F.3d at

13
441, in which courts "look to tradition and history." Medina v. Whitaker, 913 F.3d 152, 158 (D.C. Cir. 2019). An
analysis whose "first step" requires courts "to explore
the amendment's reach 'based on a historical understanding of the scope of the [Second Amendment]
right,'" Torres, 911 F.3d at 1258 (internal quotation
marks omitted), is faithful to Heller's conclusion that
"traditional restrictions go to show the scope of the
right." McDonald, 561 U.S. at 802 (Scalia, J., concurring).
Reaffirming that there are "[c]ategorical limits on the
possession of firearms would not be a constitutional
anomaly. Think of the First Amendment, which has
long had categorical limits: obscenity, defamation, incitement to crime, and others." United States v. Skoien,
614 F.3d 638, 641 (7th Cir. 2010) (citing United States
v. Stevens, 559 U.S. 460, 468-469 (2010)). "The Second
Amendment is no different." Heller, 554 U.S. at 635. As
this Court explained, "we do not read the Second
Amendment to protect the right of citizens to carry arms
for any sort of confrontation, just as we do not read the
First Amendment to protect the right of citizens to
speak for any purpose." Id. at 595 (citation omitted). Cf.
New York v. Ferber, 458 U.S. 747, 764 (1982); Garcetti
v. Ceballos, 547 U.S. 410 (2006).
B.

Courts Applying The Framework
Invalidate Firearms Regulations At
Odds With A Uniform Tradition
Affirmatively Recognizing A Right
To Keep And Bear Arms

The courts of appeals' framework does not make history and tradition a one-way ratchet that serves only to

14
uphold firearms restrictions with a longstanding historical pedigree. Courts also find a Second Amendment violation where a law without any historical precedent
would nullify a historically established right. Joseph
Blocher, Bans, 129 Yale L. J. 308, 360-367 (2019) ("formalist" approach properly limited to such cases).
The law in Heller failed "any of the standards of scrutiny" the Court has "applied to enumerated constitutional rights," 554 U.S. at 628, because it satisfied all of
those criteria. Heller was a rare case where "history provided no support for laws like the District's." NYSRPA
I, 140 S. Ct. at 1541 (Alito, J., dissenting) (emphasis
added). As the Court explained, "[flew laws in the history of our Nation have come close to the severe restriction of the District's handgun ban." Heller, 554 U.S.
at 629. The Court found only "a single law, in effect in
a single city, that contradicts the overwhelming weight
of other evidence regarding the right to keep and bear
arms for defense of the home." Id. at 632.
But that was not all. The law in Heller nullified a
right that had been firmly recognized in our legal tradition: "an individual right to possess a firearm unconnected with service in a militia, and to use that arm for
traditionally lawful purposes, such as self-defense
within the home." Id. at 577. This Court pointed to numerous legal sources that left it with "no doubt ... that
the Second Amendment conferred an individual right to
keep and bear arms." Id. at 595. Thus, Heller's "archetype of an unconstitutional firearm regulation," United
States v. Cox, 906 F.3d 1170, 1184 (10th Cir. 2018), was
a law with virtually no precedent that also foreclosed
the exercise of a right with uniform historical precedent.

15
Courts have invalidated laws that meet those criteria
without specifying a level of scrutiny. The Seventh Circuit imMoore v. Madigan, 702 F.3d 933 (7th Cir. 2012),
invalidated Illinois's "blanket prohibition on carrying [a]
gun in public." Id. at 940. The court found the same
lack of precedent for the Illinois law as this Court had
found for the District of Columbia elaw in Heller: only the
District had a law like the Illinois statute at issue and
only "a few states did during the nineteenth century, but
no longer." Id. at 940 (citation omitted). But the Seventh Circuit did not condemn the Illinois law for its lack
of precedent alone. Applying Heller's "historical analysis," the court found that right to keep and bear arms
for personal self-defense in the eighteenth century could
not rationally have been limited to the home." Id. at
936. Illinois's "flat ban on .carrying ready-to-use guns
outside the home" left no room for the exercise of that
right. Id. at 940. Thus, as in Heller, the court did not
need to decide on a level of scrutiny to condemn a law
that "eliminate [d] all possibility of armed self-defense in
public." Id. (emphasis added). Another court later invalidated the District of Columbia's similar law for similar reasons without using means-end scrutiny. Painter
v. District of Columbia, 59 F. SuPp. 3d 173, 182 (D.D.C.
2014).
The fact that cases like these are not widespread suggests that, after Heller, few jurisdictions are adopting or
defending laws that fit the mold of-the law that the
Court invalidated in that case: a law that lacks historical precedent and effectively nullifies a right uniformly
recognized by legal authorities throughout history.

16
C.

Courts Will Not Be Able To Rely On
History And Tradition Alone To
Resolve Many Second Amendment
Cases

Heller's reliance on the exceptionally dear historical
record before it in that case does not, however, compel
or even support the conclusion that Second Amendment
cases can be resolved by resort to history and tradition
alone. Although some have asserted that "courts are to
assess gun bans and regulations based on text, history,
and tradition, not by a balancing test such as strict or
intermediate scrutiny," Heller II, 670 F.3d at 1271 (Kavanaugh, J., dissenting), no Circuit has adopted such an
inadministrable test. Those courts of appeals' decisions
are consistent with Heller, in which the Court disclaimed that its opinion was intended "to clarify the entire field" of Second Amendment jurisprudence. 554
U.S. at 635. Thus, applying Heller to require an exclusive focus on history and tradition will force lower courts
into covert, unguided, ad hoc balancing, disguised as
analogy.
The reality is that many cases will involve weapons
regulations that fall somewhere in between the laws
that the Court's Heller decision stated would be valid
and the law that the Court invalidated in that case. In
many cases, the litigants will not be able to point to a
largely unbroken tradition of similar regulations or a
largely unbroken tradition of recognizing a right to do
what the regulations forbid—either because weapons
restrictions have varied from time to time or place to
place or because the regulation at issue addresses a
problem that only presented itself in recent history.

17
This Court's statement in Heller that there was "no
doubt" about the history of the individual right to bear
arms for self-defense in the home was a conclusion
about the scope of the Second Amendment right, not
about the lawfulness of a particular firearms regulation.
Courts faced with challenges to different regulations
likely will not be able to draw as confident a conclusion
from the historical record because "analyzing the history and tradition of gun laws in the United States does
not always yield easy answers." Heller II, 670 F.3d at
1275 (Kavanaugh, J., dissenting).
Indeed, "conditions and problems differ from locality
to locality" and "citizens in different jurisdictions have
divergent views on the issue of gun control." McDonald,
561 U.S. at 783. Firearms are and always have been
subject to regulation throughout the United States. See,
e.g., Joseph Blocher & Darrell A.H. Miller, The Positive
Second Amendment: Rights, Regulation., and the Future
of Heller 19-21 (2018) (describing history of firearms
regulation); Robert Spitzer, Guns Across America: Reconciling Gun Rules and Rights 5 (2015) ("[W]hile gun
possession is as old as America, so too are gun laws").
Historically, such laws "were not only ubiquitous, numbering in the thousands; they spanned every conceivable category of regulation, from gun acquisition, sale,
possession, transport, and use, including deprivation of
use through outright confiscation, to hunting and recreational regulations, to registration and express gun
bans." Spitzer, supra, at 5. Cf. Duke Center for Firearms Law, Repository of Historical Gun Laws, online at
https://firearmslaw.duke.edu/repositorv/search-the-repositorv/ (as visited July 18, 2021) (containing more
than 1,500 historical gun laws from the Medieval Age
through the 1930s).

18
From the very beginning, those laws varied across
communities and regions, especially among urban and
rural areas. See generally Joseph Blocher, Firearm Localism, 123 Yale L. J. 82 (2013); Eric M. Ruben & Saul
Cornell, Firearm Regionalism and Public Carry: Placing Southern Antebellum Case Law in Context, 125 Yale
L. J. Forum 121 (2015). There consistently have been
"significant differences between urban and rural areas
with regard to the prevalence, regulation, perceived importance, use, and misuse of guns." Blocher, supra, 123
Yale. L. J. at 85. Moreover, some jurisdictions have
taken different positions on the same restrictions over
time. Compare An Act for the Better Security of the Inhabitants, by Obliging the Male White Persons to Carry
Fire Arms to Places of Public Worship, 1770, § 1, in Robert Watkins & George Watkins, A Digest of the Laws of
the State of Georgia 157 (Phila., R. Aitken 1800) (requiring the carrying of guns to church) with An Act to Preserve the Peace and Harmony of the People of this State,
and for Other Purposes, 1870, § 1, in Public Laws,
Passed by the General Assembly of the State of Georgia,
at the Session of 1870, at 42 (Atlanta, New Era Printing
Establishment 1870) (banning the carrying of guns to
church).
For these reasons, courts are likely to face "institutional challenges in conducting a definitive review of the
relevant historical record." NRA, 700 F.3d at 204. Indeed, lower courts deciding individual cases have noted
that "[h]istory and tradition do not speak with one
voice." Kachalsley v. Cty. of Westchester, 701 F.3d 81, 91
(2d Cir. 2012).
Another difficulty posed by a purely historical approach to the Second Amendment is that, for many regulations, there will be no history or tradition on which

19
to draw for answers. "[W]hen legislatures seek to address new weapons that have not traditionally existed
or to impose new gun regulations because of conditions
that have not traditionally existed, there obviously will
not be a history or tradition of banning such weapons or
imposing such regulations." Heller H, 670 F.3d at 1275
(Kavanaugh, J., dissenting).
The test of whether a law passes constitutional muster thus cannot always depend on how long a law like it
has been on the books. It is clear, for example, that airplanes are the kind of "sensitive places" where legislatures should be able to prohibit weapons. E.g., United
States v. Davis, 304 F. App'x 473, 474 (9th Cir. 2008).
However, Congress did not regulate firearms in airplanes until the 1960s, many years after airlines began
commercial service. See Act of Sept. 5, 1961, Pub. L. No.
87-197, 75 Stat. 466. Thus, it is hard to see how a court
applying a purely historical test could uphold restrictions on weapons in flight.
Nor would looking at history alone shed much light
on the constitutionality of laws regulating the use of
"[t]hree-dimensional ('3D') printing technology" that enables "a computer to 'print' a physical object" including,
with the right files, a "single-shot plastic pistol" or "a
fully functional plastic Alt-15." Def. Distributed v. U.S.
Dep't of State, 838 F.3d 451, 454-455 (5th Cir. 2016).
That technology could enable anyone—including "felons
and the mentally ill," Heller, 554 U.S. at 626, who cannot lawfully possess firearms—with commercially available equipment to produce so-called "ghost guns" that
law enforcement cannot trace. See Andy Greenberg, I
Made an Untraceable AR-15 'Ghost Gun' in My Office—

20
and It Was Easy, Wired (June 3, 2015, 7:00 AM).3 See
also H.R. REP. 116-88, 2 (stating that "[t]he emergence
of functional 3D-printed guns are a homeland security
threat" and are among the "rapidly evolving technologies" that "pose an ongoing, metastasizing challenge to
law enforcement"). Indeed, 3D-printed firearms have
already been used in mass assaults. Hoffman & Ware,
Is 3-D Printing the Future of Terrorism?, Wall St. J.
(Oct. 25, 2019) (reporting that "a gunman tried to massacre worshipers on Yom Kippur at a synagogue in
Halle, Germany" with "homemade weapons using 3-Dprinted components—including a 3-D-printed gun"),
online at https://www.wsj.com/articleshs-3-d-printingthe-future-of-terrorism-11572019769 (as visited July
19, 2021).
Legislatures may have good reasons to regulate this
technology, e.g., R.I. Gen. Laws section 11-47-8(e) (prohibiting possession of "any firearm produced by a 3D
printing process"), but it is hard to see how a court could
use history to assess the constitutionality of laws regulating technology that did not exist for most of the history of Anglo-American law. This is just one example of
how demanding that courts travel back in time to decide
all Second Amendment cases will often send them to a
dead end.

Online at http://www.wired.com/2015/06/i-made-anuntraceable-ar-15-ghost-gun/ (as visited July 19,
2021).

3

21
D.

Courts Required To Consider
History And Tradition Alone Will
Resort To Problematic
Jurisprudential Tools

Because instructing lower courts to rely on history
and tradition alone to apply the Second Amendment often will leave them without any meaningful guidance,
doing so will risk the proliferation of default rules that
dramatically over- or under-protect the Second Amendment or, worse, ad hoc judicial policymaking.
One option when history does not yield a clear answer would be for lower courts to adopt a default rule of
deference to the democratically accountable branches.
E.g., Lange v. California, No. 20-18, 2021 WI, 2557068,
at *20 (U.S. June 23, 2021) (noting that the Court has
declined to recognize a Fourth Amendment right where
it found "disagreement, not unanimity, among both the
common-law jurists and the text writers who sought to
pull the cases together"' (quoting Atwater v. City of Lago
Vista, 532 U.S. 318, 332 (2001))). That rule respects the
people's "freedom to govern themselves," Obergefell v.
Hodges, 576 U.S. 644, 714 (2015) (Scalia, J., dissenting),
but it would uphold a law with a mixed historical pedigree even if the law would fail intermediate scrutiny.
Another potential default rule where history does not
yield a clear answer would be to invalidate every law
that has not been uniformly adopted across time and jurisdictions in the history of the Republic. But that rule
would dramatically invade the people's ability to protect
themselves through legislation. Again, the example of
laws prohibiting firearms on planes shows that eminently sensible laws designed to address problems that
arose for the first time in the 20th century cannot trace

22
their lineage "[f]rom Blackstone through the 19th-century cases." Heller II, 670 F. 3d at 1272, n. 4. Thus,
upholding only laws with that kind of historical tradition would mean that the people's ability to protect
themselves from the dangers of weapons through legislation is limited to the regulations on the books more
than a century ago. That result would fail to fulfill this
Court's assurances that the Second Amendment does
not disable the people's "variety of tools for combating"
gun violence, Heller, 554 U.S. at 636, or foreclose their
"ability to devise solutions to social problems that suit
local needs and values," McDonald, 561 U.S. at 785.
Moreover, condemning every law that is not as
"longstanding" as the prohibitions on possession by felons and the mentally ill or carrying in schools or government buildings the Court identified as presumptively
lawful in Heller, 554 U.S. at 626-627, would ignore the
Court's express disclaimer that the decision did not set
forth "an exhaustive historical analysis ... of the full
scope of the Second Amendment." Id. at 626 (emphasis
added). To the contrary, the Court stated that it had
"identif[ied] these presumptively lawful regulatory
measures only as examples" and that its "list does not
purport to be exhaustive." Id. at 627, n. 26.
In the absence of any workable default rule, exclusive
reliance on history and tradition will likely generate intractable interpretive difficulties. In cases where there
is history on both sides, lower courts will have to develop
a set of rules for weighing historical sources. What result if eight original states restricted a particular use of
arms but five recognized a right to that use? What if the
count is nine and four? What if some of those states,
changed positions on the issue in the 19th Century?
What if some of those states changed again after the

23
Civil War? What if some state courts have upheld the
restriction but others struck it down? What if Blackstone and later commentators disagree on the matter?
Even professional historians have no method to provide definitive answers to such questions. It is difficult
to see how this Court will be able to fashion interpretive
principles that will equip reviewing courts to provide
clear and principled answers to the many difficult issues
they will face. And the problems go even deeper. The
Court will be called upon to decide how the doctrine applies to regulations of weapon possession by certain categories of people (such as those with a felony conviction,
the mentally ill, and minors), of specific weapons (like
machine guns, stun guns, or chemical sprays), of possession in particular places (like comt houses, polling
places, police stations, and schools) and of possession at
particular times (like pending trial or during a crime).
See, e.g., Eugene Volokh, Implementing the Right to
Keep and Bear Arms for Self-Defense: An Analytical
Framework and a Research Agenda, 56 UCLA L. Rev.
1443, 1475-1545 (2009) (discussing and categorizing a
broad range of gun laws). It is hard to imagine a constitutional doctrine less transparent to the people, less predictable for legislatures and their constituents and less
clear for lower courts.
Lower courts could try to analogize laws written in
the twenty-first century to laws adopted centuries before. But that mode of interpretation can engender unpredictability and inscrutability. As this Court has explained, an "analogue test" can "launch courts on a difficult line-drawing expedition" to answer questions such
as: "Is an e-mail equivalent to a letter? Is a voicemail
equivalent to a phone message slip?" Riley, 573 U.S. at
401. Such a test would keep "judges guessing for years

24
to come." Id.; see also United States v. Jones, 565 U.S.
400, 420 (2012) (Alito, J., concurring) (noting that "it is
almost impossible to think of late-18th-century situations that are analogous to" GPS searches). Similarly,
analogizing modern causes of action to those that existed at common law in applying the Seventh Amendment "requir[es] extensive and possibly abstruse historical inquiry" that is "difficult to apply." Ross v. Bernhard, 396 U.S. 531, 538, n. 10 (1970).
Given the defects in these alternatives, courts attempting a history-only approach to the Second Amendment would be more likely to engage in ad hoc, valuesbased judging than if they were applying the transparent means-ends framework that the courts of appeals
have developed. An opaque and uneven historical record creates an opportunity for "the selection of data favorable to the position being advanced without regard
to or concern for contradictory data or proper evaluation
of the relevance of the data proffered." Alfred H. Kelly,
Clio and the Court: An Illicit Loue Affair, 1965 Sup. Ct.
Rev: 119, 122, n. 13. In cases where there is little history at all, there would be little to cabin jurists' discretion to smuggle their policy views through gaps in the
historical record. And if "courts would have to engage
in wide-ranging analogies," then a test based on history
alone "would most likely involve precisely the kind ofjudicial discretion that advocates of formalism typically
seek to avoid." Blocher, Bans, 129 Yale L. J. at 363. As
much as scholars like amici might benefit if the Second
Amendment became a game of analogies, they respectfully submit that the law should rest on a foundation
more accessible to the people whose lives and rights depend on its scope and more connected to the practical

25
realities that their elected representatives endeavor to
confront.
E.
The Courts Of Appeals' Means-End
Scrutiny Is Consistent With Heller
And Aligns The Second Amendment
With Other Constitutional Rights
In other areas of constitutional law, "[w]hen history
has not provided a conclusive answer," Virginia v.
Moore, 553 U.S. 164, 171 (2008), this Court has turned
to other jurisprudential methods. It should do the same
in applying the Second Amendment by adopting the approach that the courts of appeals uniformly have
adapted from other constitutional jurisprudence: absent
a dear historical tradition of regulating conduct or recognizing a fundamental right to engage in that conduct,
"a law impinging upon the Second Amendment right
must be reviewed under a properly tuned level of scrutiny—i.e., a level that is proportionate to the severity of
the burden that the law imposes on the right." NRA,
700 F.3d at 198.
Even in cases where courts apply this well-recognized framework, history remains relevant and the
courts remain faithful to Heller. Courts have understood the "core Second Amendment right" to be "the
right to keep a handgun in the home for self-defense."
NYSRPA I, 140 S. Ct. at 1540-1541 (Auto, J., dissenting). Thus, in deciding which level of scrutiny applies to
a firearm regulation, the courts of appeals have asked
"whether the challenged regulation burdens the core
Second Amendment right." Assn of N.J. Rifle & Pistol
Clubs, Inc., 910 F.3d at 117. "A regulation that threatens a right at the core of the Second Amendment—for
example, the right of a law-abiding, responsible adult to

26
possess and use a handgun to defend his or her home
and family—triggers strict scrutiny." Gould, 907 F.3d
at 671.
Courts applying such means-end scrutiny therefore
are not treating "the right recognized in Heller as a second-class right, subject to an entirely different body of
rules than the other Bill of Rights guarantees." McDonald, 561 U.S. at 780 (plurality opinion). Nor are they
engaged in the "freestanding 'interest-balancing' approach" that this Court rejected in Heller as inconsistent
with any "of the traditionally expressed levels" of scrutiny. 554 U.S. at 634 (emphasis added). Rather, they
are using a jurisprudential tool that this Court has
honed over many years for putting government officials
to their paces in justifying regulations. Where meansend scrutiny is "crafted so as to reflect" our "constant and
unbroken national traditions"—as the lower courts' Second Amendment framework is—even the most ardent
originalist) has "no problem" with means-end scrutiny
because it is "essential to evaluating whether the new
restrictions that a changing society constantly imposes
upon private conduct comport with [the protections] our
society has always accorded in the past." United States
v. Virginia, 518 U.S. 515, 568 (1996) (Scalia, J., dissenting).
That is why this Court uses means-ends scrutiny in
testing burdens on activity implicating other constitutional rights. For example, "Heller itself repeatedly invokes the First Amendment in establishing principles
governing the Second Amendment." United States v.
Marzzarella, 614 F.3d 85, 89, n. 4 (3rd Cir. 2010). And
"First Amendment doctrine demonstrates that, even
with respect to a fundamental constitutional right, we
can and should adjust the level of scrutiny according to

27
the severity of the challenged regulation." NRA, 700
F.3d at 198; see also Marzzarella, 614 F.3d at 96 ("Strict
scrutiny does not apply automatically any time an enumerated right is involved. We do not treat First Amendment challenges that way").
This Court repeatedly has emphasized that "[p]olitical speech, of course, is at the core of what the First
Amendment is designed to protect." Morse v. Frederick,
551 U.S. 393, 403 (2007) (internal quotation marks
omitted) (emphasis added). Cf. Citizens United v. Fed.
Election COMMA" 558 U.S. 310, 393 (2010) (Scalia, J.,
concurring) ("A documentary film critical of a potential
Presidential candidate is core political speech"). "When
a law burdens core political speech, we apply exacting
scrutiny." McIntyre v. Ohio Elections Comm in, 514 U.S.
334, 347 (1995) (internal quotation marks omitted) (emphasis added). Similarly, "the First Amendment protects public employee speech only when it falls within
the core of First Amendment protection—speech on
matters of public concern." Engquist v. Or. Dept of
Agric., 553 U.S. 591, 600 (2008) (emphasis added).
"At [the Fourth Amendment's] very core stands the
right of a man to retreat into his own home and there be
free from unreasonable governmental intrusion." Silverman v. United States, 365 U.S. 505, 511 (1961) (emphasis added); see also Kentucky v. King, 563 U.S. 452,
474 (2011) ("In no quarter does the Fourth Amendment
apply with greater force than in our homes, our most
private space which, for centuries, has been regarded as
entitled to special protection." (internal quotation
marks omitted)) Similarly, the Seventh "Amendment
was designed to preserve the basic institution of jury
trial in only its most fundamental elements." Galloway
v. United States, 319 U.S. 372, 392 (1943) (emphasis

28
added). And the level of scrutiny that the Equal Protection Clause requires depends on the nature of the government classification. Compare Adarand Constructors, Inc. v. Pena, 515 U.S. 200, 235 (1995); with Craig
v. Boren, 429 U.S. 190, 197 (1976); with City of Cleburne
v. Cleburne Living Ctr., 473 U.S. 432 (1985).
Even setting aside the notion of "core" rights, gradations of scrutiny are a feature rather than a bug for constitutional adjudication. Again, "[t]he right to free
speech, an undeniably enumerated fundamental right,
is susceptible to several standards of scrutiny, depending upon the type of law challenged and the type of
speech at issue." Marzzarella, 614 F.3d at 96-97 (citation omitted). Thus, "the constitutional rights of students in public school are not automatically coextensive
with the rights of adults in other settings," and "must be
applied in light of the special characteristics of the
school environment." Morse, 551 U.S. at 396-397 (internal quotation marks and citations omitted). In particular, "due to the special features of the school environment, school officials must have greater authority to
intervene before speech leads to violence." Id. at 425
(Alito, J., concurring).
Further, "the extent to which the Government can
control access" to a place for exercising fundamental
speech rights "depends on the nature of the relevant forum." Cornelius v. NAACP Legal Def. & Educ. Fund,
Inc., 473 U.S. 788, 800 (1985). "In a traditional public
forum—parks, streets, sidewalks, and the like—the government may impose reasonable time, place, and manner restrictions on private speech, but restrictions based
on content must satisfy strict scrutiny, and those based
on viewpoint are prohibited." Minn. Voters All. v. Mansky, 138 S. Ct. 1876, 1885 (2018). "As with the First

29
Amendment, the level of scrutiny applicable under the
Second Amendment surely depends on the nature of the
conduct being regulated and the degree to which the
challenged law burdens the right." Heller II, 670 F.3d
at 1257 (internal quotation marks omitted).
Likewise, under the Taking Clause of the Fifth
Amendment, a "different standard applies" depending
on whether the government is "appropriating private
property for itself or a third party" or "imposes regulations that restrict an owner's ability to use his own property." Cedar Point Nursery v. Hassid, 141 S. Ct. 2063,
2071 (2021). Moreover, the level of scrutiny of government action alleged to work a taking depends on the
"character of the government action": "physical appropriation" is "a per se taking," while other regulations are
subject to a more "flexible test." Id. at 2072.
Thus, only by rejecting means-end scrutiny or imposing strict scrutiny in every case would the Court make
the Second Amendment "subject to an entirely different
body of rules than the other Bill of Rights." McDonald,
561 U.S. at 780 (plurality opinion). See Gould, 907 F.3d
at 670 ("Strict scrutiny does not automatically attach to
every right enumerated in the Constitution"); Chester,
628 F.3d at 682 ("We do not apply strict scrutiny whenever a law impinges upon a right specifically enumerated in the Bill of Rights"). Applying strict scrutiny to
every weapons regulation would require courts to give
the people's representatives more leeway to discriminate against women than, for example, to limit minors'
access to guns. See United States v. Virginia, 518 U.S.
at 568, 576-579 (Scalia, J., dissenting) (intermediate
scrutiny applies to gender classifications).

30
There is no justification for supercharging the right
to bear arms with a test based entirely on history and
tradition or an invariable requirement to apply strict
scrutiny when the Second Amendment is not "be[ing]
singled out for special—and specially unfavorable—
treatment." McDonald, 561 U.S. at 778-779. Courts
have invalidated laws regulating firearms even under
intermediate scrutiny. E.g., Binderup v. Att'y Gen., 836
F.3d 336 (3d Cir. 2016), cent. denied, 137 S. Ct. 2323
(2017) (holding a prohibition on possession by individuals convicted of a misdemeanor punishable by imprisonment for more than two years to be unconstitutional asapplied); Heller v. District of Columbia, 801 F.3d 264
(D.C. Cir. 2015) (invalidating police inspection requirement, requirement to re-register every three years, limitation on registering more than one gun per month, and
requirement that registrant pass a test); N.Y. State Rifle
& Pistol Ass'n, Inc. v. Cuomo, 804 F.3d 242 (2d Cir.
2015) (invalidating prohibition on possessing magazines
loaded with more than seven rounds of ammunition).
More generally, some 40% of civil plaintiffs asserting
Second Amendment claims prevail in the federal courts
of appeals under the framework amici have argued this
Court should adopt. Eric Ruben & Joseph Blocher,
From Theory to Doctrine.• An. Empirical Analysis of the
Right to Keep and Bear Arms After Heller, 67 Duke L. J.
1433,1478-1479, tbls. 4-5 (2018). Those rates are well
within the range of success rates for other constitutional
claims. Compare James E. Krier & Stewart E. Sterk,
An Empirical Study of Implicit Takings, 58 Wm. &
Mary L. Rev. 35,64 (2016) (noting that "aggrieved landowners prevail in fewer than 10 percent" of cases surveyed involving taking claims based on regulatory activity); Nancy Leong, Making Rights, 92 B. U. L. Rev. 405,

31
428 (2012) (finding that "the plaintiff prevailed on 48%
of all Fourth Amendment claims raised in the civil context"); John P. Forren, Revisiting Four Popular Myths
About the Peyote Case, 8 U. Pa. J. Const. L. 209, 222, n.
52 (2006) (collecting sources and noting studies finding
that claims under the Free Exercise clause prevail at
rates of 12.4%, 12.1%, and 16%).
III. CONCLUSION
This Court should hold that the courts of appeals
have identified the correct framework for adjudicating
claims that the Second Amendment prohibits a law restricting the right to bear arms.

Respectfully submitted,
DAVID H. FRY
JUSTIN P. RAPHAEL
MUNGER, TOLLES & OLSON LLP
560 Mission Street, 27th Floor
San Francisco, CA 94105
(415) 512-4000

DONALD B. VERRILLI JR.
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue N.W.
Suite 500 E
Washington, D.C. 20001
donald.verrilli@mto.com
(202) 220-1100

Counsel for Amici Curiae

JULY 20, 2021

